No. 19-607

In the Supreme Court of the United States
WOODCREST HOMES, INC.,
Petitioner,
v.
CAROUSEL FARMS METROPOLITAN DISTRICT,
Respondent.

On Petition for Writ of Certiorari
to the Colorado Supreme Court
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI
CURIAE SOUTHEASTERN LEGAL FOUNDATION, CATO INSTITUTE,
OWNERS’ COUNSEL OF AMERICA, AND NATIONAL FEDERATION OF
INDEPENDENT BUSINESS SMALL BUSINESS LEGAL CENTER IN SUPPORT
OF PETITIONER in the above-captioned case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text, and 10 point for the footnotes, and this brief contains 4,749
words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as
needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 10, 2019.
__________________________________
Robert H. Thomas
Counsel of Record
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Amici Curiae

